           Office Of Inspector General




December 26, 2003

WILLIE C. MINER
MANAGER, BALTIMORE DISTRICT

SUBJECT:         Audit Report – Efficiency of Work Performed by Clerks in the Columbia,
                 Maryland, Business Mail Entry Unit (Report Number NO-AR-04-002)

This report presents the results of our audit of work performed by business mail
entry employees in the Columbia, Maryland, Business Mail Entry Unit (Project
Number 03YG053AC000). We conducted this self-initiated audit jointly with Postal
Service Capital Metro Area Marketing managers.

The audit disclosed that workhours necessary to accept business mailings in the
Columbia, Maryland, Business Mail Entry Unit were excessive. During the audit, Postal
Service management agreed to reduce business mail entry workhours by 3,960 hours
by the end of fiscal year 2005. We calculated the financial impact of this reduction in
workhours could produce an estimated cost avoidance of approximately $1.4 million
over 10 years. We recommended the manager, Baltimore District, reduce hours as
planned and periodically reevaluate staffing needs. Management agreed with our
finding and recommendations and actions taken or planned should correct the issues
identified in the report. Management’s comments and our evaluation of these
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, Network Operations - Processing, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
cc: John A. Rapp
    Anita J. Bizzotto
    John R. Wargo
    Jerry D. Lane
    Tammy T. Edwards
    Michele A. Denny
    Susan M. Duchek
Efficiency of Work Performed by Clerks in the                                     NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit


                                        INTRODUCTION
   Background                    There are over 2,000 business mail entry units located in
                                 Postal Service facilities nationwide. They accepted
                                 approximately $34.8 billion in revenue in fiscal year
                                 (FY) 2002, which represents about 53 percent of the Postal
                                 Service’s total revenue. Business mail entry unit clerks
                                 receive business mailers' bulk, presorted, and permit mail
                                 for acceptance. Business mail is accepted using dedicated
                                 platform space, office space, and a staging area on the
                                 workroom floor. A business mail entry clerk, using
                                 prescribed acceptance procedures, typically performs
                                 mailing verifications. Verification procedures include
                                 verifying fees and funds on deposit, reviewing contents of
                                 mailpieces, checking of labels and mail make up, and
                                 completing postage verification.

                                 Business mail entry clerks are primarily located at
                                 processing and distribution centers. However, some clerks
                                 are located or operate at the bulk mail centers, detached
                                 mail units, associated post offices, and satellite offices.

                                 Postal Service operations are organized into nine areas, as
                                 depicted below. The Columbia, Maryland, Business Mail
                                 Entry Unit is located in the Baltimore District in the Capital
                                 Metro Area. The Capital Metro Area accepted $1.7 billion or
                                 5 percent of total FY 2002 Postal Service business mail
                                 entry unit revenue. The Columbia, Maryland, Business Mail
                                 Entry Unit accepted $32.4 million or 1.9 percent of the
                                 FY 2002 Capital Metro Area Business Mail Entry Unit
                                 revenue.




                                                1
Efficiency of Work Performed by Clerks in the                                     NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit




   Objective, Scope, and         The objective of our audit was to assess the efficiency
   Methodology                   of work performed by business mail entry clerks within the
                                 Columbia, Maryland, Business Mail Entry Unit. To assess
                                 the efficiency of work performed, we observed business
                                 mail entry unit operations and analyzed business mail
                                 volumes and workhours. In addition, we benchmarked
                                 productivity at the Columbia, Maryland, Business Mail Entry
                                 Unit with other business mail entry units.

                                 Our review was comprised of a business mail entry unit at
                                 the Columbia, Maryland, post office and a detached mail
                                 unit located at a customer site. The Columbia, Maryland,
                                 Business Mail Entry Unit has four full-time employees.

                                 We relied on Postal Service operational systems, including
                                 the Web Enterprise Information System, Permit System,
                                 and Time and Attendance Collection System to perform our
                                 analysis of mailings and workhours. We did not test the
                                 validity of controls over these systems. However, we
                                 checked the accuracy of data by confirming our analysis
                                 and results with Postal Service managers. Nothing came to
                                 our attention to suggest that data used was unreliable.

                                 This audit was conducted from October through
                                 December 2003 in accordance with generally accepted
                                 government auditing standards, and included such tests
                                 of internal controls as were considered necessary under
                                 the circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

   Prior Audit Coverage          We have issued four prior audit reports on the efficiency of
                                 business mail entry units. (See Appendix A for details.)




                                                2
Efficiency of Work Performed by Clerks in the                                                         NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit



                                            AUDIT RESULTS
    Assessment of                  Our review disclosed that workhours within the Columbia,
    Employees’                     Maryland, Business Mail Entry Unit were excessive in
    Workhours                      relation to the number of business mailings processed.
                                   Postal Service policies1 require that business mail entry
                                   units ensure the efficient use of workhours. Furthermore,
                                   FY 2002 mailings per workhour were below the area and
                                   national averages. Postal Service management agreed that
                                   3,960 workhours2 could be eliminated based on business
                                   mail volumes, benchmark data, and observations of
                                   business mail operations.

                                   As shown in the table below, FY 2002 mailings per
                                   workhour3 for the Columbia, Maryland, Business Mail Entry
                                   Unit was 0.78 while the national average was 1.66. This
                                   means the Columbia, Maryland, Business Mail Entry Unit
                                   processes less than one-half the national average for
                                   mailings per workhour.

                                   Table 1 – FY 2002 Mailings Per Workhour Comparison



                                                         LDC 794            Number of           Mailings per
                                                        Workhours            Mailings            Workhour


                                     Columbia,               7,964              6,187                 .78
                                     Maryland

                                      National             8,134,577        13,495,189                1.66
                                      Average5




1
  Handbook DM-109, Business Mail Acceptance, Chapter 2.
2
  Workhour reductions were based on the Columbia, Maryland, Business Mail Entry Unit Action Plan.
3
  Mailings per workhour is defined as the number of business mail entry unit mailings divided by the number of
LDC 79 (labor distribution code) workhours.
4
  LDC 79 is the labor distribution code for mail acceptance.
5
  The national average was calculated by dividing total business mail entry unit FY 2002 mailings by total number of
FY 2002 LDC 79 workhours.


                                                       3
Efficiency of Work Performed by Clerks in the                                                           NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit



                                   To corroborate our analysis, observations of the Columbia,
                                   Maryland, Business Mail Entry Unit revealed:

                                        •    Business mail entry unit clerks performed nonlabor
                                             distribution code 79 tasks while clocked into the labor
                                             distribution code 79 operation code.

                                        •    Low mailing volumes per workhour.

                                        •    Detached mail unit workhours did not correspond with
                                             their mail flow.

                                        •    Business mail entry unit managers did not adjust
                                             staffing levels based on mail volumes.

    Management’s                   To improve productivity, Postal Service managers agreed to
    Actions                        reduce business mail entry workhours in the Columbia,
                                   Maryland, Business Mail Entry Unit by 3,960 hours by the
                                   end of FY 2005, primarily through attrition. Assuming mail
                                   volume remains constant, these actions would raise
                                   productivity to approximately 1.62 mailings per workhour
                                   based upon FY 2003 mailings. These actions would also
                                   save the Postal Service approximately $1.46 million over the
                                   next 10 years. Appendix B details the financial impact of
                                   workhour reductions planned by the Columbia, Maryland,
                                   Business Mail Entry Unit.

    Recommendations                To improve business mail entry productivity, we recommend
                                   the manager, Baltimore District:

                                        1. Reduce business mail entry hours as planned.

                                        2. Periodically evaluate staffing to determine if further
                                           workhour adjustments are necessary based on
                                           workload.

    Management’s                   Management agreed with our finding and recommendations,
    Comments                       including the reduction of business mail entry workhours by
                                   3,960 by the end of FY 2005.



6
 Based on Postal Service’s methodology, the cost avoidance was projected over 10 years using Postal Service’s
assumptions for annual workhours, the business mail entry clerk labor rate, and the latest labor escalation factor.
The 10-year savings equals $1.8 million, which equates to a net present value of $1.4 million. See Appendix B.


                                                        4
Efficiency of Work Performed by Clerks in the                              NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit




 Evaluation of                 Management’s comments for recommendations 1 and 2 are
 Management’s                  responsive to the recommendations. Management’s
 Comments                      actions, taken and planned, should correct the issues
                               identified in the report.




                                                5
Efficiency of Work Performed by Clerks in the                               NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit



                                          APPENDIX A

                                PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, dated September 26, 2002),
disclosed many Denver Bulk Mail Center and Denver General Mail Facility business
mail entry employees were not needed to accept business mailings. As a result,
management could save an estimated $1 million annually. We recommended
management oversee the consolidation of business mail entry operations and reduce
staff as planned, and reevaluate staffing to determine if further staff reductions are
necessary. Management agreed and the actions taken and planned were responsive to
the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, dated March 28, 2003),
disclosed workhours necessary to accept business mailings at these facilities should be
reduced. As a result, management could produce an estimated cost avoidance of
$588,730 through the end of FY 2005 by fully implementing its planned workhour
reductions. We recommended senior plant managers of the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers reduce hours, periodically reevaluate staffing needs, and
ensure that appropriately trained personnel perform acceptance functions.
Management agreed and the actions taken and planned were responsive to the issues
identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, dated July 31, 2003), disclosed that workhours
necessary to accept business mailings at the facilities we reviewed should be reduced.
During the audit, Postal Service management agreed to aggressively reduce business
mail entry workhours by 28,800 hours by the end of FY 2005. We calculated the
financial impact of this reduction in workhours could produce an estimated cost
avoidance of approximately $9.26 million over 10 years. We recommended the
manager, Los Angeles District, reduce hours and periodically reevaluate staffing.
Management agreed with our recommendations and has initiatives in progress
addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the San Francisco
Business Mail Entry Unit (Report Number AO-AR-03-002, dated September 25, 2003),
disclosed workhours necessary to accept business mailings in the San Francisco
Business Mail Entry Unit should be reduced. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
18,000 hours by the end of FY 2006. We calculated the financial impact of this
reduction in workhours could produce an estimated cost avoidance of approximately



                                                6
Efficiency of Work Performed by Clerks in the                             NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit


$6.9 million over 10 years. We recommended the manager, San Francisco District,
reduce hours as planned and periodically reevaluate staffing. Management agreed and
the actions taken and planned were responsive to the issues identified in the report.




                                                7
Efficiency of Work Performed by Clerks in the                               NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit



                                        APPENDIX B

           COLUMBIA, MARYLAND, BUSINESS MAIL ENTRY UNIT
                          COST AVOIDANCE
                     (FUNDS PUT TO BETTER USE)



                                        Yearly        Fully Loaded    Cost Avoidance
                                       Workhour           Labor        (10 Years with
                 Year
                                       Reduction       Rate/Hour         Escalation)

   FY 2004                                3,960          $ 40.29        $ 1,809,825
   (Effective Accounting
   Period 7)
                                                      Present Value
                                                         @ 4.5%         $ 1,388,363
                                                        10 Years




SOURCE

    •   Workhour reductions were based on the Postal Service Columbia, Maryland,
        Business Mail Entry Unit Action Plan.

ASSUMPTIONS

    •   Labor rates were based on the Postal Service 2003 Published Rates for a PS-06
        business mail entry unit technician.

    •   Yearly Escalation Factor is 2.5 percent.

    •   Postal Service Cost of Borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by
implementing recommended actions.




                                                  8
Efficiency of Work Performed by Clerks in the          NO-AR-04-002
 Columbia, Maryland, Business Mail Entry Unit


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                9
